<html>
<title> - A MORE EFFICIENT AND EFFECTIVE GOVERNMENT: EXAMINING FEDERAL IT INITIATIVES AND THE IT WORKFORCE</title>
<body><pre>[Senate Hearing 113-534]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-534

               A MORE EFFICIENT AND EFFECTIVE GOVERNMENT:
         EXAMINING FEDERAL IT INITIATIVES AND THE IT WORKFORCE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE EFFICIENCY AND
      EFFECTIVENESS OF FEDERAL PROGRAMS AND THE FEDERAL WORKFORCE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE 

90-918 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


 SUBCOMMITTEE ON THE EFFICIENCY AND EFFECTIVENESS OF FEDERAL PROGRAMS 
                       AND THE FEDERAL WORKFORCE

                     JON TESTER, Montana, Chairman
MARK L. PRYOR, Arkansas              ROB PORTMAN, Ohio
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
MARK BEGICH, Alaska                  RAND PAUL, Kentucky
TAMMY BALDWIN, Wisconsin             MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota

                 Tony McClain, Majority Staff Director
                 Brent Bombach, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Tester...............................................     1
    Senator Portman..............................................    12

                               WITNESSES
                         Tuesday, June 10, 2014

Luke J. McCormack, Chief Information Officer, U.S. Department of 
  Homeland Security..............................................     4
Stephen W. Warren, Executive in Charge of Information and 
  Technology, U.S. Department of Veterans Affairs................     6
Donna K. Seymour, Chief Information Officer, U.S. Office of 
  Personnel Management...........................................     7
David A. Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office..................     9
Christopher Miller, Program Executive Officer, DOD Healthcare 
  Management System, U.S. Department of Defense..................    10

                     Alphabetical List of Witnesses

McCormack, Luke J.:
    Testimony....................................................     4
    Prepared statement...........................................    37
Miller, Christopher:
    Testimony....................................................    10
    Prepared statement...........................................    77
Powner, David A.:
    Testimony....................................................     9
    Prepared statement...........................................    55
Seymour, Donna K.:
    Testimony....................................................     7
    Prepared statement...........................................    50
Warren, Stephen W.:
    Testimony....................................................     6
    Prepared statement...........................................    44

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. McCormack................................................    83
    Mr. Warren...................................................    90
    Ms. Seymour..................................................   104
    Mr. Miller...................................................   111

 
                     A MORE EFFICIENT AND EFFECTIVE
   GOVERNMENT: EXAMINING FEDERAL IT INITIATIVES AND THE IT WORKFORCE

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                                 U.S. Senate,      
        Subcommittee on the Efficiency and Effectiveness of
                Federal Programs and the Federal Workforce,
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:26 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Subcommittee, presiding.
    Present: Senators Tester, Baldwin and Portman.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Good afternoon. I want to call to order 
this hearing of the Subcommittee on the Efficiency and 
Effectiveness of Federal Programs and the Federal Workforce.
    Today's hearing is titled ``A More Efficient and Effective 
Government: Examining Federal Information Technology 
Initiatives and the IT Workforce.''
    We have assembled a terrific panel of witnesses, and I want 
to thank you all for joining us here today and sharing your 
perspectives on these important issues.
    The Federal Government's dependence on Information 
Technology (IT) infrastructure has been critical to its daily 
operation for over three decades and will only increase over 
time. While the Federal Government takes steps to modernize its 
computer system and the manner in which it collects, stores and 
disseminates data, it has certainly been a bumpy road. And, as 
we proceed further down that road, it is critical that we move 
forward in a responsible, cost-effective manner.
    A number of recent events have given credence to those who 
suggest that the Federal IT system is broken, and given that 
the Federal IT portfolio is more than $80 billion, we have 
plenty of reasons to be concerned and plenty of reasons to pay 
close attention to what is going on.
    We are talking about the rollout of healthcare.gov and 
countless other IT projects that have been lucrative for 
contractors but not worth the taxpayers' expense.
    We are talking about the deployment of a computer 
scheduling system incapable of adequately monitoring and 
coordinating the process through which veterans are connected 
to timely care that they have earned and, seemingly, incapable 
of preventing the employees from gaming the system and 
producing artificially short wait times.
    And, in the wake of unprecedented data collection efforts, 
we are talking about inadequate safeguard and privacy 
protections for the responsible storage and usage of America's 
personal information.
    And we are also talking about an area of government in 
which we are finding it increasingly difficult to recruit and 
hire the best candidates in the field of information 
technology.
    But the point of today is not to simply highlight the 
Federal IT shortcomings. It is to highlight the lessons 
learned, how they have translated into fundamental reforms and 
how they help provide the blueprint to move forward.
    At a May hearing held by this Committee, we learned about 
how the Office of Management and Budget (OMB's) PortfolioStat 
Initiative, which requires agencies to conduct annual review of 
their IT investments, has helped agencies identify duplicative 
spending and, with improved implementation, could result in 
billions in savings.
    We are also talking about positive efforts by the Veterans 
Affairs (VA), who was the only agency in a recent Government 
Accountability Office (GAO) report found to have defined 
functionality and required delivery of their projects' 
functionality within 6 months.
    Today's hearing seeks to examine the process through which 
major Federal IT projects are developed and coordinated 
governmentwide, to what extent is there agency collaboration 
and cost-sharing, and to what extent are there IT investments 
monitored or coordinated governmentwide.
    For instance, if the VA is looking to implement additional 
privacy protections into the management of its data base of 
veterans' personal information, is there a process in place for 
the VA to coordinate or buildupon efforts by agencies like 
Social Security Administration (SSA) or Office of Personnel 
Management (OPM), who have addressed similar needs.
    And what are the fundamental obstacles that prevent 
agencies, like the Department of Defense (DOD) and the VA, from 
jointly developing and deploying an integrated electronic 
health record (EHR) system?
    Today, we hope to answer these questions and others, and to 
identify ways to improve the process, reduce waste and increase 
opportunities for collaboration and cost-sharing.
    The hearing also seeks to examine the state of the Federal 
IT workforce and the qualifications and capacity of our Federal 
IT workforce.
    To what extent are we contracting out for major IT 
initiatives, and is that driven by our decreasing capacity for 
carrying them out internally?
    Today, we will discuss these issues and many more, and I 
look forward to the discussion.
    I want to, once again, thank everybody for being here 
today. I appreciate your presence here today.
    Ranking Member Portman is not here as of yet. We just came 
off a series of votes on the floor.
    Senator Baldwin, do you have an opening statement?
    Senator Baldwin. Not at this time. I will wait until 
questions.
    Senator Tester. And, now, we will begin the introductions?
    First, I will make the introductions, and then we will go 
to your testimony at which point your entire written testimony 
will be a part of the record. Try to keep your verbal comments 
to about 5 minutes. That allows Senator Baldwin, Senator 
Portman when he gets here and I, to ask more questions.
    First, we have Luke McCormack. Luke is the Chief 
Information Officer (CIO) at the Department of Homeland 
Security (DHS). He oversees DHS continuing efforts to implement 
IT enhancements and strengthen IT security.
    He previously served at the Department of Justice (DOJ), 
where he provided strategic direction, management services, 
oversight on cross-component information technology efforts and 
IT infrastructure services.
    He also served in a variety of positions at DHS, including 
CIO for U.S. Immigrations and Customs Enforcement (ICE) and for 
Customs and Border Protection (CBP).
    It is good to see you again today, Luke. I know it is your 
first time testifying, but I think it will be so enjoyable you 
will be clamoring to come back again. [Laughter.]
    Stephen Warren is the Executive in Charge of Information 
and Technology at the Department of Veterans Affairs. Mr. 
Warren joined the Department of Veterans Affairs in 2007 and 
currently oversees the day-to-day activities of the VA's $3.7 
billion IT budget in addition to over 8,000 IT employees.
    Mr. Warren also served as CIO for the Federal Trade 
Commission and as CIO for the Office of Environmental 
Management at the Department of Energy.
    It is good to have you here today, Stephen.
    And then we have Donna Seymour. Donna is the new Chief 
Information Officer at the Office of Personnel Management. She 
is responsible for IT and technology solutions for OPM and 
previously served as the Acting Deputy Assistant Secretary of 
Defense for the Office of Warrior Care Policy.
    She also served as Principal Director for Civilian 
Personnel Policy and has more than 34 years of Federal service.
    Donna, thank you for coming here today, and it is good to 
have you, too.
    David Powner is the Director of IT Management Issues at the 
U.S. Government Accountability Office. He is responsible for a 
large portion of the GAO's IT work that focuses on systems 
development and acquisition, IT governance and IT reform 
initiatives.
    Previously, in the private sector, David served in 
executive level positions in the telecommunications industry, 
including overseeing IT and financial internal audits and 
software development associated with digital subscriber lines.
    David has been a frequent witness before Congress, having 
testified more than 70 times in the last several years.
    Thank you for coming today. It is good to have you here, 
David.
    And, finally, Christopher Miller is the Program Executive 
Officer in charge of the DOD's Healthcare Management System. He 
is responsible for the modernization of DOD's clinical 
management systems, including the sharing of electronic health 
data between the Department of Defense and the Department of 
Veterans Affairs.
    Christopher previously served as Executive Director of the 
Navy Space and Naval Warfare Systems Center Atlantic, managing 
engineering and business operations for a workforce of more 
than 4,000 Federal, civilian and military employees, and over 
10,000 industry partners.
    Thank you for being here, Christopher.
    And thank you all for taking the time to be here.
    It is a custom to swear in all the witnesses who appear 
before this Subcommittee. So, if you do not mind, I would ask 
you all to please stand, raise your right hand, and if you 
agree with what I am about to say, you can answer in the 
affirmative; if you do not, you can answer in the negative.
    Do you swear that the testimony you will give before this 
Subcommittee will be the truth, the whole truth and nothing but 
the truth; so help you, God?
    Mr. McCormack. I do.
    Mr. Warren. I do.
    Ms. Seymour. I do.
    Mr. Powner. I do.
    Mr. Miller. I do.
    Senator Tester. Let the record reflect that all the 
witnesses answered in the affirmative.
    So each of you will have, once again, 5 minutes for your 
oral statements. Please summarize your statements as much as 
possible. There will be a clock in front, and you can see that 
so we can have some time for questions.
    The record for this will be open until June 25, and your 
complete written testimony will be a part of that record.
    So, with that, Mr. McCormack, you can start.

 TESTIMONY OF LUKE J. MCCORMACK,\1\ CHIEF INFORMATION OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McCormack. Chairman Tester, Senator Baldwin, good 
afternoon.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McCormack appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    Today is indeed my first appearance before this Committee, 
and I thank you for the opportunity to speak to you about 
information technology at DHS.
    I have more than 25 years of Federal IT experience, both 
within and outside of DHS, as well as private sector 
experience.
    I have oversight responsibility for more than 90 major IT 
programs across 7 large operational components and the 
headquarters.
    I have served as DHS's CIO for less than 6 months. Yet, I 
can say with conviction that DHS has made great strides toward 
the management of IT.
    I will describe what DHS is doing as an enterprise to 
support delivery of mission capabilities in three areas: how we 
govern our infrastructure in DHS and across components, the 
efficiencies we can realize through appropriate and responsible 
enterprisewide efforts, and the importance of recruiting, 
training and retaining strong IT professionals.
    To best govern our infrastructure, we have worked with CIOs 
across our components to establish a robust, tiered governance 
model that provides active oversight and ensures programs have 
the key executive stakeholders engaged to ensure success. At 
the top of this governance structure is the Department's 
Acquisition Review Board. The board has ultimate oversight over 
all large programs--those with a life cycle cost of $300 
million or more.
    As an interim measure, between board meetings, executive 
steering committees, comprised of key executives, meet to 
ensure programs stay on track or, in some cases, get back on 
track.
    There is also an IT acquisition review process which 
confirms that acquisitions comply with security, accessibility 
and enterprise architecture requirements. The review process 
also ensures that acquisitions align with DHS's strategic 
direction on enterprise data centers, licenses and services. 
The DHS CIO approves every IT acquisition over $2.5 million.
    Since the implementation of the tiered governance model, 
approximately one-third of DHS's acquisition programs have 
improved from moderate to low risk, and half have improved from 
high risk to moderate risk.
    To strengthen our stewardship, we are working to streamline 
processes, address duplication of effort and integrate systems 
through the use of DHS enterprise architecture.
    To augment this work, we are establishing portfolio 
governance boards in which DHS senior executives can drive 
decisions to effect better mission and business outcomes.
    We are achieving tremendous progress in integrating IT 
infrastructure, establishing enterprise services and leveraging 
our size for purchasing power. For example, we estimate our 
recently completed network consolidation will result in an 
average cost savings of 12 percent of the operations and 
maintenance.
    We negotiated more than a dozen enterprise license 
agreements with major software and hardware vendors, resulting 
in more than $125 million in cost avoidance.
    We have consolidated 18 legacy data centers into 2 state-
of-the-art enterprise data centers, and we migrated over 
136,000 DHS employees to our e-mail service cloud offering and 
lowered our average mailbox cost from the industry benchmark 
average of $24 per month to a little over $8 per month.
    Managing our workforce is the final issue I will address. 
Attracting, training and retaining quality DHS IT professionals 
are critically important to our long-term success. Over the 
past few years, we have been developing and implementing a 
strategy that outlines IT career paths and enables us to 
formally address how new workers can progress along a technical 
or managerial track. The Department continues to explore 
opportunities and collaborate on ways to create a community of 
high-performing IT professionals.
    That concludes my remarks. I appreciate your time and 
attention.
    I look forward to addressing your questions and concerns as 
well as the opportunity to work with you to ensure that DHS IT 
remains strong, responsive and secure.
    Senator Tester. Thank you, Luke. We also look forward to 
the opportunity to work with you.
    Stephen, you are up.

   TESTIMONY OF STEPHEN W. WARREN,\1\ EXECUTIVE IN CHARGE OF 
INFORMATION AND TECHNOLOGY, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Warren. Chairman Tester, Ranking Member Portman, 
Senator Baldwin, thank you for the opportunity to speak today 
about the effectiveness and efficiency of IT programs at the 
Department of Veterans Affairs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Warren appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Before I begin, I would first like to recognize the 
Chairman for his strong and ongoing support for improving 
access to care through your support of multiple telehealth 
initiatives at the VA. In addition, your active involvement 
resulted in Ft. Harrison, Montana being the first VA medical 
center to convert to our phone services platform.
    Thank you again, sir.
    I presently serve as VA's Chief Information Officer 
managing VA's consolidated IT organization, one of the largest 
consolidated IT organizations in the world. As such, it is 
essential for VA to deliver IT solutions that work for our 
enterprise, which encompasses over 600,000 system users, over a 
million network devices in our 150 hospitals, 820 community-
based outpatient clinics (CBOCs), 300 vet centers, 131 national 
cemeteries, 56 Benefits Administration Regional Offices and 
multiple administration centers.
    VA's most significant success in creating efficiency is in 
the area of IT product delivery. For the fourth year in a row, 
our on-time delivery rate for IT projects tops 80 percent. We 
used to deliver at 30 percent of the projects we started. The 
industry rate is approximately 56 percent.
    VA's efforts to improve product delivery was primarily 
driven by our implementation of our Product Management 
Accountability System (PMAS). PMAS is the disciplined approach 
VA uses to ensure the customer, project team, vendors, 
leadership and all stakeholders focus on a single, compelling 
mission--on-time delivery of IT capability into production.
    PMAS mandates the agile best practice of delivering product 
capability in increments of 6 months or less. We have not only 
met but exceeded this goal. Our products now average 4.2 months 
from start to delivery.
    We also had to align our workforce to the agile policies we 
set in place, ensuring we had the right staff on the right 
projects at the right time, and then changing the way we manage 
our human resources. And we accomplished this by moving to a 
competency-based model in October 2010. Our competency model 
established teams of trained, ready resources organized around 
specific skill sets that can be allocated to prioritize 
projects when needed.
    The next important stage in our efforts is to move to 
DevOps. DevOps is an industry-leading best practice in which 
project development and IT operations organization barriers are 
removed to ensure more seamless delivery and support of 
products. This is already paying dividends as we have seen 
improvements in our release capabilities by adopting 
repeatable, reliable, automated processes.
    Our first major project utilizing these industry best 
practices was focused on automating the delivery of the post-9/
11 education benefits to service members returning home from 
service. In 18 months, we delivered 12 releases and went from a 
paper process to an end-to-end automated system that has 
delivered over $6 billion in education benefits.
    We also are applying the same concepts to the disability 
benefits processing. Disability claims processing has a long 
history of reviewing paper files with little or no investments 
in IT. In 2010, we began transforming this decades-old, manual, 
paper claims approach into a state-of-the-art electronic 
process with 6 major and 19 minor releases in the past year. 
The result has been a reduction in the disability claims 
backlog by 44 percent in the last year.
    If we had waited for a complete processing system to be 
developed and deployed, our veterans would still be waiting. 
Delivering functionality to claims processors in manageable 
increments allowed us to build on solutions that worked and 
adjust the solutions that did not.
    In conclusion, our ultimate goal is to ensure IT 
investments result in successful delivery of capabilities that 
serve veterans. This transformation took dedication and 
commitment, and we continue to evolve and improve our 
methodologies as our environments continue to change.
    Thank you for the opportunity to appear before the 
Committee with my esteemed colleagues, and I am happy to take 
any questions you may have.
    Senator Tester. Thank you for your testimony, Stephen.
    We have the CIO of the Office of Personnel Management. 
Donna, you are up.

 TESTIMONY OF DONNA K. SEYMOUR,\1\ CHIEF INFORMATION OFFICER, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Seymour. Good afternoon, Chairman Tester, Ranking 
Member Portman and Senator Baldwin. Thank you for inviting me 
to participate in today's hearing to examine the state of the 
Federal IT workforce and projects. As CIO for OPM, Director 
Archuleta tasked me with conducting a thorough assessment of 
the state of IT at OPM. This process has led us to identify 
numerous opportunities for improvement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Seymour appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Director Archuleta's goal is to put OPM at the forefront of 
IT innovation in the Federal Government.
    Director Archuleta was made aware of opportunities for 
improvement in IT administration at OPM and made IT among her 
top priorities. She stated her intent to develop a plan for 
modernizing the agency's IT within 100 days of assuming office.
    OPM released this strategic IT plan in March. It provides a 
framework for the use of data throughout the human resources 
life cycle.
    Taking this approach, we will adopt an H.R. IT framework as 
a concept for sharing information among the various existing IT 
solutions and future capabilities. We will provide a set of 
standards that will span the H.R. life cycle and support 
information exchange.
    This framework will drive government and industry in 
creating solutions and supporting processes that provide high 
quality, modern IT services in a way that also ensures 
information-sharing.
    The flagship initiative of Director Archuleta's Strategic 
IT Plan is enterprise information management. Providing 
technology at the enterprise level will allow us to reduce 
duplication. The enterprise initiatives will help us work 
better across programs and improve service to our stakeholders.
    Director Archuleta's Strategic IT Plan encompasses IT 
systems across the H.R. life cycle from USAJOBS to retirement 
processing.
    USAJOBS is stable, running well and easily handling high 
volumes of job announcements. USAJOBS averages 22 million 
visits per month with an average of 24 million visits in March 
and April. On average, over 90 million searches are conducted 
per month. We will continue to monitor and analyze the system 
and incrementally refine features like its search and 
navigation functions.
    Director Archuleta is making modernizing the retirement 
system a top priority. OPM will move forward with progressive 
IT improvements for near-term results, including a case 
management system. While much of the retirement process remains 
paper-based, OPM has begun a gradual transition to a fully 
digital process. We believe that incremental progressive IT 
improvement will reduce the complexity of the challenge to a 
more manageable level.
    As an example of how we are looking to the future, we are 
working with a payroll shared service center to pilot receipt 
of data electronically. After the pilot, we will be in a 
position to work with the other payroll shared service 
providers to eliminate hard-copy individual retirement records 
completely.
    Additionally, we are building a means by which the 
electronic data can automatically be fed into our annuity 
calculator. This increases accuracy and allows our staff to 
provide better customer support.
    OPM is playing a leading role in an effort to formalize 
Federal IT program management. OPM worked with OMB to add the 
title IT Program Manager to the job family standard for IT and 
to develop the IT Program Manager competencies and the IT 
Program Management Career Path Guide.
    OPM also understands that agencies may need flexibilities 
to meet their hiring needs. OPM has partnered with the CIO 
Council to communicate the various hiring and pay authorities 
available to attract and hire the talent needed.
    Director Archuleta is committed to reforming IT within OPM 
and across the Federal sector. OPM continues to work with the 
CIO Council to provide guidance and training curriculum on 
Federal IT program management and to educate agencies on their 
hiring flexibilities for critical IT positions.
    Thank you for the opportunity to testify today, and I am 
happy to address any questions you may have.
    Senator Tester. Thank you, Donna Seymour. David Powner.

    TESTIMONY OF DAVID A. POWNER,\1\ DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Powner. Chairman Tester, Ranking Member Portman and 
Senator Baldwin, we appreciate the opportunity to testify on 
how the Federal Government can better manage its annual $80 
billion investment in information technology.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Powner appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    Of this $80 billion, about three-quarters is spent on 
operational or legacy systems, and the remaining goes toward 
new development. Therefore, it is vitally important that new 
systems acquisitions are managed effectively and that the 
government finds more efficient ways to deliver existing 
services.
    Starting with how we can manage large IT acquisitions, four 
areas need improvement across the Federal Government: one, 
transparency; two, executive governance; three, incremental 
development; and four, using best practices.
    The IT dashboard was put in place to improve the 
transparency by highlighting the status in CIO assessments of 
approximately 750 major IT investments across 27 departments. 
The accuracy of the information on the dashboard has improved 
over time, with certain agencies reporting more accurately than 
others.
    Of the 750 major investments, about 575 are in green 
status, 150 are in yellow, and 40 are in red. So there are 
currently about 200 projects where the government will spend 
about $10 billion that are at risk and need attention.
    Mr. Chairman, the agencies on this panel acknowledge with 
their dashboard ratings that, collectively, they have about 50 
investments that tally $4.5 billion that need management 
attention. DOD still reports no red investments, but they have 
recently committed to a new process to improve their dashboard 
ratings.
    OMB and agencies need to aggressively govern these at-risk 
investments, using TechStat sessions and other governance 
mechanisms. Our work has shown that both OMB and department and 
agency CIOs are not performing enough of these oversight 
meetings.
    In addition to better transparency and CIO oversight, 
agencies need to tackle acquisitions in more manageable 
segments. A major aspect of the 2010 IT reform plan called for 
agencies to deliver in smaller segments to be successful. Our 
2011 report on successful IT acquisitions proved this out as 
all examples were increments of larger projects and each used 
proven best practices like having the right staff and program 
management disciplines.
    We recently reported that three-quarters of the IT 
acquisitions are not planning to deliver capabilities in 6 
months and less than half plan to deliver within the year. 
Therefore, we still have too many big-bang projects that do not 
deliver anything for years and, therefore, run a high risk of 
failure.
    Now I would like to turn to how the Federal Government can 
be more efficient in managing existing or legacy applications.
    We have issued reports that highlight hundreds of 
investments providing similar functions across the Federal 
Government. The numbers here are staggering. For example, 
annually, the Federal Government invested in 780 supply chain 
systems totaling $3.3 billion, 660 human resource systems 
totaling $2.5 billion and 580 financial management systems 
totaling $2.7 billion.
    OMB has an excellent initiative called PortfolioStat to 
eliminate this duplicative spending in administrative and 
business systems. OMB reports that agencies have achieved about 
$1.9 billion in savings through this initiative.
    And our work shows that there are over 200 PortfolioStat 
initiatives that agencies are working on to eliminate 
duplicative spending and that $5.5 billion can be saved by 
2015. It is critical that the 200-plus initiatives are driven 
to closure so that the $5 billion in savings can be achieved.
    Several of these initiatives address software licensing, a 
topic that we recently reported on and made recommendations for 
improvement. That report highlights the fact that savings can 
be significant if the Federal Government better manages this 
area, but that is difficult to do when only 2 of the 24 major 
agencies report having a complete software license inventory.
    Another major area where savings can be significant is 
addressing unused data center capacity. OMB started a data 
center consolidation effort in 2010 to address the government's 
low server utilization rates estimated, on average, at 10 to 15 
percent, far from the industry standard of 60 percent.
    Our ongoing work shows that about 750 centers have been 
closed or consolidated to date, over $1.3 billion in savings 
has resulted, and agencies estimate another $3 billion in 
savings in fiscal years (FY) 2014 and 2015. Therefore, expected 
savings through 2015 should be around $4.5 billion. Better 
transparency on this savings is needed, in our opinion.
    Mr. Chairman, better managing large-scale acquisitions in 
legacy operations does not happen without strong and empowered 
CIOs. It is well documented that many CIOs do not have the 
responsibilities and authorities in their respective agencies 
to be successful. The Federal Government will struggle, 
addressing the areas mentioned, if the CIO issue is not 
properly addressed. A good starting point is for agency 
leadership to support and hold CIOs accountable for the areas I 
just outlined.
    This concludes my statement.
    Chairman Tester, Ranking Member Portman, I look forward to 
your questions.
    Senator Tester. Thank you for your testimony, David, and 
there will be questions.

 TESTIMONY OF CHRISTOPHER MILLER\1\ PROGRAM EXECUTIVE OFFICER, 
 DOD HEALTHCARE MANAGEMENT SYSTEMS, U.S. DEPARTMENT OF DEFENSE

    Mr. Miller. Chairman Tester, Ranking Member Portman, 
Senator Baldwin, thank you for the opportunity to address the 
Subcommittee today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    I am honored to represent the Department of Defense as a 
senior official responsible for the Department's efforts to 
modernize our electronic health records and to make them more 
interoperable with those of the Department of Veterans Affairs 
and our private sector providers.
    I also have the privilege of representing the DOD/VA 
Interagency Program Office (IPO), as the Acting Director.
    DOD and VA are industry leaders in sharing health data. The 
departments are aggressively working to do more.
    Together, we are moving from read-only data shared through 
current exchanges to enhanced interoperability that provides 
data that is more integrated into clinical work flows and 
usable. Today, more than 1.5 million data elements are shared, 
and as of April 2014, there are more than 5.3 million patient 
records that are usable and correlated between the departments.
    DOD and VA have a longstanding collaborative interagency 
relationship. Joint activities are led by the Joint Executive 
Committee (JEC), which is co-chaired by the Under Secretary of 
Defense for Personnel and Readiness and the Deputy Secretary of 
Veterans Affairs.
    In December 2013, the JEC refocused the IPO to help achieve 
the departments' shared vision and published in the Joint 
Strategic Plan for Fiscal Year 2013 to 2015, which is to 
provide a single system experience of lifetime service through 
the sharing of electronic health record information.
    Additionally, DOD and VA have established an IOP Executive 
Committee to support development of standards and the required 
architectural components for interoperability. This is chaired 
by the Under Secretary of Defense for Acquisition, Technology 
and Logistics, my boss, and the VA Executive in Charge of 
Information and Technology, Mr. Warren, who is beside me today 
on the panel.
    Providing seamless integrated sharing of standardized 
health data among DOD and VA and private sector providers is a 
critical component of delivering high quality health care for 
our service members, our veterans and their families.
    Last year, the DOD and VA completed a series of data 
interoperability initiatives on an accelerated timeline, and we 
will develop, jointly, follow-on initiatives this year. These 
enhancements include improving and expanding the Janus joint 
legacy viewer, which provides access to an integrated view of 
DOD and VA records; upgrading the Blue Button capability, which 
provides online access to DOD and VA personal health data; and 
improving data federation between the departments to facilitate 
semantic interoperability, which is the ability of systems to 
exchange data with shared meaning.
    The DOD/VA Interagency Program Office is working very 
closely with the Office of the National Coordinator for Health 
Information Technology to identify and adopt national standards 
for interoperability. In pursuit of its technical leadership 
role, the IPO recently developed a Health Interoperability 
Technical Package to drive both departments' implementation and 
adoption of national health standards; these are required for 
seamless interoperability. This document will be updated on a 
quarterly basis as applicable standards evolve and mature over 
time.
    Over the past 10 years, DOD's medical health IT system has 
fallen behind industry capabilities. DOD's goal is a system for 
the future, which is open and flexible so it can easily adapt 
to meet changing requirements. DOD Healthcare Management 
Systems Modernization Program will buildupon existing 
interoperability capabilities between both departments and our 
private care providers.
    In May 2013, Secretary Hagel announced the decision to 
pursue a full and open competition to modernize our EHR system 
based on an exhaustive analysis of alternatives. The Department 
has stood up a program office, established a comprehensive 
program plan; developed an initial program cost estimate, a 
business case and an acquisition strategy.
    As you know, the Department of Defense is focused on better 
buying power to improve the productivity of the Department of 
Defense. Our EHR modernization program is embracing these 
principles and applying them to ensure we deliver maximum value 
for our taxpayers.
    Last, we have hosted three industry days while issuing two 
draft request for proposals (RFPs) for feedback from industry 
and government agencies. The final RFP will be released later 
this summer, and contract award is anticipated for 2015.
    DOD has remained responsive to Congressional interests 
through its involvement with GAO. We have closely examined and 
addressed GAO's recommendations regarding costs and schedule.
    We have developed an initial life cycle cost estimate and 
detailed program schedules for both the health data-sharing 
program and our DOD EHR Modernization Program. We have also 
aggressively worked to staff both programs with professionals 
with recent IT acquisition experience.
    DOD is committed to pursuing enhanced interoperability and 
modernization of our electronic health record in the most 
effective and efficient way possible.
    Again, thank you for this opportunity, and I look forward 
to your questions.
    Senator Tester. Well, thank you, Christopher, for your 
testimony.
    And thank you all for your testimony.
    I will turn it over to Ranking Member Portman now for his 
opening statement and/or questions.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Great. Thank you, Mr. Chairman.
    I appreciate you all being here, and sorry I was not here 
right at the beginning. We were in the middle of votes, and 
Chairman Tester is faster than I am. Apparently, so is Ms. 
Baldwin.
    But we are here on a very important mission, and that is to 
talk about the state of technology in the Federal Government. 
Some of these technology projects, IT projects, have been 
problematic, to say the least. We are here to look at some of 
those problems and see how we can fix them.
    It is not just some of the results that you all talked 
about today which we want to get into further detail on, but it 
is also, how are these projects solicited, how are they 
awarded, how are they monitored and how are they implemented?
    We also need to look at the workforce. The IT workforce, of 
course, is a big issue right now.
    How do you attract the right people and retain them given 
the private sector competition? We have talked about that some 
in this Subcommittee.
    And we need to be sure we have some of the best technical 
folks possible to carry out some of these difficult projects 
that you have. We have seen this with VA recently. Mr. Warren, 
I am sure we are going to talk some about that in more detail. 
From what we hear from press accounts and other sources, it 
sounds like the expertise of the staff has been part of the 
problem with the scheduling and with the IT issues.
    This hearing is not the first hearing that Congress has had 
on this topic. There has been a long history of Congressional 
inquiries into how the Federal Government can better implement 
IT systems.
    Almost 10 years ago, the Internal Revenue Service (IRS) 
spent about $3 billion on an IT system and found out at the end 
of the process it did not work. And the Appropriations 
Committee started a commission that I co-chaired with then-
Senator Bob Kerrey, and we spent 2 years looking at it and came 
out with a bunch of recommendations that I think have helped 
with the IRS on their restructuring and reform.
    But, again, unfortunately, we have seen lots of instances 
where there have been high-profile IT acquisition failures. So 
we have lots of work to do.
    The Defense Department is here. We are going to talk some 
about your issues.
    We are told that getting this Defense Department audit done 
is partly an IT challenge, and you know, getting the DOD audit 
ready has been a priority of mine and, I am sure, the Senators 
who are with me here on the panel today. We can talk about 
whether that is true, whether the IT issue is really one of the 
problems that is holding that up.
    Obviously, with regard to the Affordable Care Act there are 
some ongoing concerns about the IT side.
    The bottom line is what we have to acknowledge is that 
although the private sector is not perfect at these big 
projects and there have been plenty of failures on the private 
sector side too, more on the public side, and a lot of it is 
the capability on the private sector side seems to be advanced 
in terms of fielding innovative and adaptive IT systems.
    The GAO has been helpful, and Mr. Powner, thank you for 
being here today.
    You testified today about some of these problems you have 
identified. But more important to me and, I think, to the 
Chairman is, what are the solutions?
    You have given us some ideas today that I just heard. You 
talked about implementing best practices, establishing and 
implementing incremental development policies, increasing 
attention on Federal data center consolidation. Those savings 
are pretty impressive. You said, basically, $4.5 billion over 
the next couple of years, it sounds like.
    Strengthening PortfolioStat, which is something that is 
very important. Having been over at OMB, I think that is part 
of the answer here.
    Anyway, I hope today we can have an opportunity to get some 
clarification on some of these issues and, more importantly, 
again, some of the steps needed to impact substantive change as 
well as how each of your departments are faring in some of the 
initiatives you talked about today.
    And I look forward to asking some further questions, Mr. 
Chairman, when we are up to do that. I will do my questions 
later after you two have a chance to since I did my long 
opening statement here.
    But I do appreciate the witnesses taking the time to be 
here and to prepare testimony for us today. Thank you.
    Senator Tester. Thank you, Senator Portman.
    I am going to allow Senator Baldwin to ask questions.
    Senator Baldwin. Thank you, Mr. Chairman, and I want to 
thank you and the Ranking Member for holding this important 
hearing today.
    I do want to just speak briefly about the VA's nationwide 
Access Audit before asking some questions on another topic. It 
makes this hearing particularly timely.
    The Nationwide Access Audit revealed troubling scheduling 
practices and wait times, including at VA facilities in my home 
State of Wisconsin. There, the average wait time for a new 
patient who is trying to set up a first appointment with a 
primary care doctor at the Madison VA medical facility was 51 
days. That is simply not acceptable.
    In part, the scheduling and access problems are a result of 
legacy scheduling systems and inadequate training for VA 
employees on those systems. And I am certainly going to be 
interested to hear how current Federal IT initiatives could 
help address the VA's shortcomings in providing access to every 
one of our veterans.
    But I wanted to focus in on another topic, and so on a 
positive note, Mr. Miller, I am interested in hearing about the 
DOD Healthcare Management Systems Modernization (DHMSM).
    I have heard some really positive feedback at this stage of 
the process. So I want to commend you for the work that DHMSM 
has done thus far.
    In particular, I was happy to see in your testimony that 
you have engaged with a number of private facilities, including 
Children's Hospital in Wisconsin, as well as a number of other 
systems, to learn about their approach to, and their experience 
with, acquisition and development of their electronic health 
records and systems.
    That said, there are a few ways in which it seems like the 
DOD's procurement process is different than what would be done 
in a commercial setting or in a private setting, and so I 
wanted to ask you a few questions about the decisions and if 
you will be looking at changing anything in the next drafts of 
the request for proposals.
    First, from my understanding of the proposal, there will 
not be the sort of traditional demonstrations of software for 
doctors and nurses to see how the system could meet their needs 
and directly participate in selecting the system. Instead, you 
are asking for sort of other things like screen shots to gauge 
usability.
    The Office of the National Coordinator for Health IT 
recommends several demonstrations of at least 90 minutes in 
duration for the clinical stakeholders.
    And I think in this case it is the doctors, the nurses, the 
therapists who are the extension of the IT workforce, and there 
has to be trust in order to make these work well.
    So I am wondering if you are considering making any changes 
in the RFP relating to demonstrations and allowing providers 
and practitioners to have a voice in the selection process for 
DOD.
    Mr. Miller. So, ma'am, let me first say that when I first 
came on the job back in September one of the first things we 
did is we undertook an engagement with industry experts and 
leaders in this area, in the commercial health care market.
    So, in addition to the places you have mentioned, I have 
met with Kaiser Permanente, Health Care Administration (HCA). I 
have met with a number of industries to learn the good and the 
bad.
    And so it is important to recognize that our private health 
care providers are undergoing a transformation. The adoption of 
electronic health records is ahead of where many of the 
forecasts were going, and so there is a high likelihood even 
today everybody here that gets health care provided is going to 
be using some kind of electronic health care system.
    And so we undertook to really go learn from those 
experiences and to really figure out how we should best develop 
our strategy, and the main thing that I will say we learned was 
it is more about the transformation of the business process and 
less about the IT.
    The reason why I say that is because in our market research 
and our analysis we feel very confident that there are a number 
of commercial products, including those based on Veterans 
Health Information Systems and Technology Architecture (VistA), 
that could meet our requirement.
    So, really, what we are looking to evaluate as part of our 
proposal is how well they do things like change management and 
training and help us standardize our business processes.
    To your point, ma'am, there is a factor in our evaluation 
that deals with the product capability. Where I am different 
than the commercial companies that oftentimes get to go do a 
lot of interesting things to go make decisions, I have this 
thing called the Federal Acquisition Regulations (FAR), that we 
have to abide by.
    So one of the things we are trying to do, ma'am, is make 
sure that we build an evaluation process that is as open and 
fair and transparent for all providers.
    And so when you come to things like demonstrations, they 
potentially open up things that are difficult, and so we are 
trying to work through how we can still gain the insight and 
get our people the access they need without making this thing, 
in any way, shape or form, compromised or compromise the 
integrity of our acquisition.
    So we are in the process of releasing an update to our 
RFP--a draft. Actually, if I get out of here early enough 
tonight, I am going to go sit through review.
    But we are very close this week to issuing one. And it will 
have updates in those areas, ma'am, but we are trying to 
balance moving expeditiously with doing it right.
    And just so you are aware, we have had over 1,000 comments 
on our RFP to date, and we have addressed every single one of 
those. And we will continue to engage industry and learn and 
make sure we provide feedback in those areas, ma'am.
    Senator Baldwin. I have a second question on this topic, 
but the comment I would have is just how valuable it is if your 
focus is really on transformation of the business process to be 
assured that the doctors, the nurses, the therapists are going 
to trust the instrument and use it----
    Mr. Miller. Yes, ma'am.
    Senator Baldwin [continuing]. Because the last thing you 
want is something that fails.
    Mr. Miller. Right. I should have addressed that, ma'am. My 
apologies.
    And so, besides me, I would say I have an acquisition 
organization, but I am staffed with a lot of clinical and 
people from the community that are directly involved.
    The selection, as it will go down, will be a combination of 
your traditional acquisition and legal, but we have a number of 
clinical experts from the services and from the leadership of 
the Department of Defense who will help make that decision.
    Additionally, what we have also learned from industry, 
besides someone like me who kind of performs the acquisition IT 
role, the Department of Defense is establishing a functional 
champion who will bring that community leadership. So today, 
Admiral Bono is sort of stepping into that while we formally 
put someone in that position.
    But the clinical relationship is a key piece of this. I am 
there to make them successful. This is not about what I am 
going out and trying to do in terms of making a selection. This 
is more about them being involved and really making that 
transformation for how they want to deliver care because I 
think there is a lot of opportunity here. I think when you see 
what industry does today and how they deliver care, the 
opportunities for patients to be more involved in their health 
care. Those are the kinds of opportunities we are aggressively 
going after, to really think how we position the Department of 
Defense moving forward with our health IT infrastructure.
    Senator Baldwin. If I could raise just one quick issue or 
ask one quick additional question and ask it very open-ended 
rather than leading; how do you decide weight that is placed on 
sort of the technology, the infrastructure, the architecture of 
a system versus functionality and features of the system?
    How do you approach that in this process?
    It is such a huge undertaking.
    Mr. Miller. Yes, ma'am. So the way we are approaching it is 
we basically have criteria, and those criteria have basically 
areas that we are going to evaluate.
    And so, initially, we are going to evaluate, does the 
product meet certain gating--basically, is the product mature 
enough for us to be able to consider it?
    And so those factors include things like the Office of 
National Coordinator certification. Can it work in our 
information assurance environment?
    Basically, we are trying to make sure that the products we 
focus our evaluation on are really the ones we want.
    So the next piece deals with we look at the technical 
requirements. Then we look at the actual product capability, 
and that product capability piece, ma'am, is what you are 
driving it in terms of the ability to support our clinical 
operations and do things. And then we have a piece that is 
cost-driven.
    So our responsibility is going to be evaluate all of those 
factors and then work through the trades and what we value and 
what we want to incentivize so that we make the best decision 
for our taxpayer.
    Senator Baldwin. Thank you.
    Mr. Miller. Yes, ma'am.
    Senator Tester. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    I would like to talk about the VA since it is a timely 
issue and because you all are here and you have had the 
opportunity to talk a little about some of your IT progress you 
have made at the VA.
    I would like to focus in on the scheduling system. We just 
heard about the wait lists, and in Ohio, unfortunately, the 
wait lists are also unacceptably long.
    We are waiting for the IG's report to come out. He is 
looking at another 42 VA centers beyond Phoenix, we are told, 
but the preliminary information that we have is really 
troubling.
    The wait lists are unacceptably long, but hiding the length 
of those wait lists to meet Washington performance measures by 
kicking people off the wait list altogether is outrageous 
because you have veterans who, frankly, thought they were on a 
wait list and find out in Phoenix 1,700 of them were kicked off 
altogether.
    We have heard the horror stories of people who, while on 
that wait list, actually expired. They died while they were 
waiting to get the care.
    And part of the problem, as we understand it, is that the 
Veterans Health Information Systems and Technology 
Architecture--which is your scheduling program and IT system on 
the health side, is not working well.
    We have heard that VA employees gamed the system, and we 
have heard that they have gone around the system. In the 
internal audit that the VA did that was released yesterday, it 
was reported that at 70 percent of VA facilities there was an 
instance of scheduling staff using some alternative to the 
electronic wait list in this VistA program.
    Seventy percent of the VA facilities' scheduling staff were 
not even using the VistA program. So, clearly, this is 
indicative of a much deeper structural problem at the VA, not 
just an IT program, and we need to work to address those.
    But it is also important we have the right IT system in 
place to support our veterans and support the processes the 
Department has for wait lists and for health care generally.
    One of the things that we have learned is that these 
scheduling difficulties go back to at least 2005. So that is 
almost 10 years ago.
    And, as you know, we are looking at legislation on the 
floor right now that would require the VA to enter into a 
contract with an independent third party for a 180-day 
assessment of the scheduling, staffing, finance, and other 
processes at each VA medical facility to review and assess 
employee training, technology, provider availability and other 
matters; also, establish a technology task force from the 
outside that would review the needs of the Department with 
respect to a scheduling system and scheduling software.
    So, first, I would like your thoughts on what happened. Why 
has this been such a failure, to the detriment of our veterans?
    And, two, what are your current plans to improve this 
scheduling function?
    And then, three, what do you think of the legislation?
    How do you weigh creating a new system versus leveraging 
some of the existing commercial software you have that is 
already in use in the private health care systems, and do you 
think the legislation is taking us down the right course to be 
able to correct these problems?
    Mr. Warren. Thank you, Ranking Member Portman, for that 
question.
    As a veteran, I also find it unacceptable that those wait 
times were as long as they were and the activities that 
individuals took on the line.
    I think you rightly pointed out this is a challenge that 
falls in three categories. It is people, process and 
technology. Technology is a piece of it.
    And, if I could clarify one of your questions, when we talk 
about the VistA system, it is important to think about that 
system in two parts.
    There is a clinical component that is used as part of care, 
and I think we found--and I hear feedback from clinicians all 
the time--that portion, which focuses and enforces and supports 
how we provide care, is one of the best ones out there.
    But the administrative pieces, the ones that support the 
delivery of that care, in terms of scheduling, were not 
supported at the level they needed to have been.
    However, lots of activity had already started, dealing with 
the IT piece. As an example, I talked about PMAS and the 
transformation that took place at the VA. One of the things 
that was an impetus for that change was we canceled the 
scheduling project that had been running for 10 years. You 
referred to that in your opening remarks.
    It was part of the reviews that we undertook after IT got 
consolidated at the VA, and we identified how we did IT was not 
meeting the standard. We were meeting, or we were delivering, 
at a 30 percent rate.
    So we stepped back. We looked at that project. And it was 
one of the ones that was not delivering nor was going to 
deliver.
    At that point, we transformed how we did IT, and I talked 
about those statistics, about how we moved it.
    Big projects fail. Small projects, tight timelines, with a 
lot of focus on outcome, deliver, and we have been able to show 
that. Focus on starting the ones that will succeed.
    While we were doing those, a lot of work took place on the 
scheduling area. What were the processes? What were the 
requirements?
    We went out--and there was an America COMPETES Act 
competition in 2012-2013, to look at and ask the question, 
could the marketplace provide a solution? And one of the things 
that came out from that competition was, yes, the marketplace 
could.
    And along the way of proving that, we also validated what 
were the data interfaces standards that we need to use as well 
as developed the sandboxes or the places where vendors could 
come and show.
    Senator Portman. Let me interrupt you just for a second 
there so I make sure I understand this, Mr. Warren.
    Your internal review, even short of whatever the IG comes 
up with, says that at 70 percent of your centers that staff 
were going around the VistA program and not using the 
scheduling software.
    Are you suggesting that that was purposeful, in other 
words, that at the top you all were saying, the system is not 
working properly, so we need to try something else?
    And I do not know what the correlation is between that 70 
percent and where the problems occurred, but the suggestion is 
that is one of the reasons we have had so many problems.
    So are you saying that the VA headquarters was partly 
responsible for not having in place a system that worked and 
was even maybe encouraging people not to use the system they 
had?
    Mr. Warren. Sir, I would like to make sure that in no way 
do I imply that individuals were encouraging folks on the line 
to circumvent the processes or the tools that were in place to 
schedule appointments.
    Senator Portman. OK.
    Mr. Warren. Unacceptable behavior, and we have heard that 
from the top. And for myself, as a veteran, I find it 
unacceptable and abhorrent that folks would do something like 
that.
    Senator Portman. But you were saying earlier that the 
scheduling software was not working properly.
    Mr. Warren. We recognized we needed to improve, and 
improvements have been taking place over that period of time.
    We also recognized that we needed to replace it, and that 
is what the America COMPETES competition 2012-2013 was.
    And 18 months ago, when we put the 2014 budget together, 
funding was put in that budget, and those acquisitions are 
underway to replace the scheduling portion, that old module, 
with a commercial product.
    Senator Portman. Do you think that is one reason 70 percent 
of the centers were not using the scheduling software?
    Mr. Warren. Sir, I have not been involved in the review in 
terms of understanding how the people and process piece broke 
down. I am sure technology was a part of it.
    We have a parallel effort underway that our partners in the 
health--Veterans Health Administration have laid out for us to 
improve the interface so it was not so hard, so people did not 
have to dig through and find the list and manage it.
    So I am sure individuals were frustrated with it.
    But in terms of driving that as an outcome, it is a path we 
were on. The acquisitions are underway to actually get the 
commercial product in and tie it to the health care portion, 
the clinical portion, which is really good, but deal with that 
administrative piece that really does not meet the standard.
    Senator Portman. OK. My time is expired. I need to go back 
to the Chairman, but I would like to followup on this to be 
sure we can understand what happened.
    Senator Tester. Thank you, Senator Portman.
    This next question is going to be for everybody but GAO, 
and we will get to you later, David.
    According to a poll released in February, approximately 50 
percent of the Federal employees are either mulling a career 
switch or potentially moving out of the government because of 
their frustrations with pay freezes and political tacks and, 
quite frankly, an expectation that there may be better salaries 
out there for the same kind of work in the private sector.
    It is not unusual for somebody to leave work--and correct 
me if I am wrong with this statement--to leave work on a Friday 
as a Federal employee and come back on Monday as a contractor. 
That seems strange to me, if that actually is happening--doing 
the same work with more pay.
    We recently learned that a former contractor, a renowned 
fellow by the name of Edward Snowden, was being paid an annual 
salary of over $200,000. I do not know what you all are getting 
paid, but that is potentially more than what you are getting 
paid.
    So the question is, when you are either working with folks 
that are around you--I will not say under you, but working with 
the folks that you work with, or trying to hire new folks, what 
are you hearing from them as far as being able to get the best 
and the brightest, or being able to keep the best and the 
brightest?
    And we will start with you, Luke.
    Mr. McCormack. Thank you for that question.
    Well, it is indeed true; there are situations where a 
Federal employee on a Friday becomes a contractor on Monday, 
and there are also experiences where a contractor on Friday 
becomes a Federal employee on Monday. So that goes both ways.
    There certainly is an opportunity to continue to build the 
workforce core, and we have done that through a variety of 
mechanisms.
    I mean, the reason why people join Federal service is not 
particularly for the pay. Most of us could go out in the 
private sector and pursue other, more lucrative opportunities. 
It is the mission that brings people forward, and it is the 
opportunity to make a difference that really draws people to 
the Federal workforce.
    We are doing a variety of things to retain and attract 
Federal workers, including putting core competencies together 
and career tracks so that, as I said in my opening statement, 
an individual can go on a management career track or a 
technical career track. They can also rotate through various 
career fields, which allows them to broaden their career 
experience.
    And we are also working on core competencies to make sure 
that we understand what those are and map those to the 
particular career tracks and make sure that we continue to 
train and develop the employees to support those core 
competencies.
    Senator Tester. OK. And we will get to you in a second, 
Steph.
    Just very quickly, in your department, is recruitment and 
retention a problem when it comes to IT folks?
    Mr. McCormack. There is always opportunity to improve, but 
I would say that we are doing well----
    Senator Tester. OK.
    Mr. McCormack [continuing]. On our recruitment; we are 
doing well on our retention.
    Senator Tester. Steph.
    Mr. Warren. I think, to echo some of Luke's comments, it is 
part. I have--56 percent of my workforce are veterans in the IT 
organization.
    Senator Tester. That is good.
    Mr. Warren. And 68 percent of my contractors are service-
disabled, veteran-owned small businesses. We focus on that, and 
we hire for that.
    But even with that, it is hard at times. I mean, there is a 
lot of message that they hear, but their heart and their 
commitment keeps them there.
    But we also look--and with your indulgence, I would like to 
recognize two individuals in the audience.
    We have a Warrior to Workforce Program, and I have two of 
the gentlemen with me. Purple Hearts, active duty, served their 
time in harm's way, but we bring them in on a 3-year program. 
They are 18 months in. We train them to be acquisitions 
specialists, and they graduate as 2210 Project Managers. So we 
bring them in. We help them.
    We meet our mission on the VA side, but we also start 
building an IT workforce. So we do a lot of feeder work.
    But it is a lot of work that we do to inspire and motivate 
the team, to talk about the mission, but many of them come with 
that mission and commitment in terms of they want to make that 
difference.
    Senator Tester. Good. Raise your hand, fellows. Which two 
are you?
    Mr. Warren. Oh, we lost one. He stepped out.
    Timing is everything, sir.
    Senator Tester. Thank you.
    Mr. Warren. Thank you, sir.
    Senator Tester. Donna, the same thing; how is recruiting 
and retention going?
    Ms. Seymour. OPM is working with the agencies in a number 
of areas.
    This past couple of months we have had the first ever Chief 
Human Capital Officer (CHCO), and the CIO Council combined 
meeting, where we worked with the CIO Council to explain the 
pay and leave flexibilities and hiring flexibilities that are 
available to agencies----
    Senator Tester. OK.
    Ms. Seymour [continuing]. In particular, some of the direct 
hiring authority for the information security specialists, pay 
and leave flexibilities and expert consultants, incentive pays, 
retention pay, those types of things.
    I think that when you look at the Federal workforce, you 
have to talk about total compensation. It is not just the pay.
    Senator Tester. OK.
    Ms. Seymour. And you have to look at the types of work that 
you do in the Federal Government as opposed to private 
industry, with perhaps more responsibility earlier in your 
career.
    Senator Tester. So the bottom line is you think we are 
competitive in our pay scale with the private sector even 
though we hear stories like Snowden making 200 grand.
    Ms. Seymour. I will not say that we are competitive with 
the pay scales, and I will not say that we are not.
    What I think we have to do is look at the total 
compensation package.
    Senator Tester. OK.
    Ms. Seymour. So it is not just a salary piece.
    Senator Tester. OK, Christopher.
    Mr. Miller. Sir, I probably have the smallest workforce up 
here. I have a very small acquisition organization. I would 
tell you we have just recently hired, and the interest is 
overwhelming.
    And I think I would echo it is not about the money for 
people who come work for the Federal Government. These people 
want to make a difference. They want to get involved in our 
programs and make a difference, sir.
    Senator Tester. OK.
    Mr. Miller. On the retention side, I am not losing a lot of 
people right now. Again, it comes back to the mission.
    But I will echo we do watch those things, and we are very 
closely monitoring it.
    Senator Tester. Overall, just very quickly because I want 
to get back to Senator Portman's questions, some of you, if not 
all of you, do in-house work and contractor work. Which is the 
most cost-effective, in-house work or the contractor?
    Luke.
    Mr. McCormack. A lot of that depends on the work.
    Where we try to focus our attention is on the oversight of 
the various initiatives as we look to pursue things like 
``cloud first'' and buy-as-a-service type capabilities. We are 
not building that in-house. We are becoming smart buyers, and 
so what we are looking for is our workforce that can be a smart 
buyer and then do proper oversight of those types of 
capabilities.
    Senator Tester. So would the rest of you agree on that; it 
just depends on what--are we comparing apples and oranges here? 
Steph.
    Mr. Warren. Sir, I think--and Luke is sort of touching on 
it--it depends the work that you want to have done.
    Senator Tester. OK.
    Mr. Warren. So, as an example, integrators. We have had a 
terrible history in the past of the integrator being a vendor. 
The goal and the outcome did not align.
    Senator Tester. Right.
    Mr. Warren. So we view SPAWAR as a government entity to do 
integration for us. They did for the new GI Bill. They have 
done for VBMS.
    Senator Tester. OK.
    Mr. Warren. We are now building an internal capability.
    So, high on the value chain--Federal. But there is a lot of 
commodity items out there that you can draw upon and build 
with.
    Senator Tester. Good enough. Go ahead, Donna.
    Ms. Seymour. At OPM, I think we are looking at the type of 
work as well. I would agree with Luke and Steph.
    But I also think when you are dealing with policy, when you 
are dealing with roles that have decision capability, those are 
certainly government and should remain government.
    Where you have some work that is more--I do not want to say 
mundane but where there is not a decision and a policy to be 
made----
    Senator Tester. Right. You are looking for an end product.
    Ms. Seymour [continuing]. Then those are certainly 
contractable.
    Mr. Miller. Sir, you cannot outsource your brain.
    And so one of the things I have been very demanding of our 
people is every time we make a decision on whether or not we 
are going to go out to have industry do it or we are going to 
do it, I always force my people to explain to me why--first, 
why the government cannot do it and why we cannot bring in the 
labs and warfare centers and other opportunities to give our 
people expertise.
    But then, second, they have to make a strong argument that 
it is in the government's and taxpayers' best interest----
    Senator Tester. Yes.
    Mr. Miller [continuing]. Because we have to have a long-
term----
    Senator Tester. Well, I appreciate that, and I would hope 
that every agency would do exactly that, depending on the 
situation, to go with the best work at the best price. Senator 
Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And thank you all for your service and your willingness to, 
as Mr. McCormack said, probably earn a little less than you 
could in the private sector because you are trying to do public 
service and ensure that people are taken care of.
    On the VA front, let me just followup with our previous 
back and forth.
    It sounds like one thing that you have identified, Mr. 
Warren, is that you said there is an interface problem.
    What I read that to mean is it is too hard for some people 
to use the old system. As I have said, there have been 10 years 
of problems that have been reported, and GAO and your IG have 
demonstrated that there are scheduling difficulties with the 
system.
    And part of the problem with not being able to operate the 
system probably goes to the workforce not having the training 
that they would need to be able to do that well, because in 
2009 your Inspector General reported that there was very little 
training or mentoring being conducted in veterans health 
facilities.
    Again, in 2013, just last year, an inspection concluded 
that staff members did not consistently and correctly use the 
consult, management, reporting and tracking systems. In 
clinics, more than half of the schedulers reported that they 
had not received any training.
    So I guess my question to you is, do we have improperly 
trained schedulers here, and if so, why and what are we going 
to do about it?
    An IT system's strengths, obviously, are irrelevant if the 
people charged with using the system cannot interface, as you 
say, with the system, cannot pull up the data, as you say, and 
are not getting the training to be able to use it.
    How would you respond to that?
    Mr. Warren. Sir, I provide the tools that the individuals 
at the sites use. I will gladly bring back to you for the 
record the actions that are taking place--significant 
engagement by leadership to deal with the issues identified.
    We are also being respectful of the work that the IG team 
is doing with respect to their audit and investigation, but 
significant boots on the ground to deal with the issues that 
were identified as part of the assessment.
    We have efforts underway to simplify the interface, to deal 
with some of the things that were identified as part of the 
assessment, to get that in place while we acquire the 
replacement--the commercial product to replace that scheduling 
system.
    But, glad to get that back to you, sir, for the record in 
terms of the multiple things underway that are being applied to 
address the issues that were raised, sir.
    Senator Portman. Let me just back up and be sure you 
understood my question. My question is about the training.
    Do you think that the training is adequate now?
    Do you think it is part of the reason we have had these, as 
you say, unacceptably long wait lists, and certainly in those 
cases there was fraud?
    We do not know where that happened, but we know it happened 
in Phoenix, and there are 42 other VA centers being 
investigated now by the IG.
    Do you think part of it is this issue that was identified 
by GAO and by the IG in the last couple of years- 09 IG, 2013 
inspection, again, that said that more than half of the 
schedulers reported they had not received any training? Has 
that been part of the problem or not?
    Mr. Warren. Sir, I do not have direct knowledge. So we will 
take the reports at face value in terms of those were issues 
identified that need to be worked with.
    And, as the acting secretary had laid out, there is a 
multitude of items that we are putting in place, actions taking 
place, to deal with that. Training is one of them. So the 
reports identified that. I have no basis to disagree.
    And, again, we will get you the response in terms of what 
we are doing about the training issue, as well as I believe the 
assessments are being rolled out in terms of what was 
identified, sir.
    Senator Portman. You said a moment ago you are pursuing a 
commercially available software, it sounds like, for 
scheduling. Is that accurate?
    Mr. Warren. Yes, sir, there is an acquisition. There is a 
meeting with industry taking place next week to walk through 
the requirements, and then there are individual vendor 
interviews to make sure we have the acquisition correct.
    Before the end of this fiscal year, that acquisition will 
be out to replace the commercial product, and we will be 
building on the interfaces that were developed as part of the 
America COMPETES Act and using the sandboxes, or test areas, to 
have the vendors come in and demonstrate their solutions, to 
show that it meets the clinical needs.
    Senator Portman. Yes. Again, I think there was plenty of 
evidence that we had a problem here, and it has now come to 
light with these extreme examples.
    But really, when you look back over the last 10 years, GAO 
and your own IG have identified some of the problems, and 
difficulty in using the system, perhaps. Certainly, at 70 
percent of the VA centers, there was at least some instance of 
people going around the system, improper training, more than 
half the schedulers not receiving training.
    Why did we miss those flags?
    Mr. Warren. Sir, it is difficult for me to opine on the 
direct operational in terms of how care is given by the 
schedulers.
    Again, a tool is neutral. Yes, you can do better work on 
the interfaces, on the usability design, but components of the 
issues that the VA is dealing with deal the people and the 
process component as well.
    Senator Portman. Well, we would love for you to provide 
some more specific answers to some of our questions to the 
Subcommittee, if you would, please. It is just for us to be 
able to understand better what is going on.
    What are the next steps for improving the scheduling 
software system? You talked some about that today.
    What is your timeline on it? You mentioned by the end of 
the year to have some of this commercially available 
acquisition started.
    What are some of the key capabilities you are looking for?
    What are your risks? What do you see as the greatest risks 
in the plan, to be able to anticipate those this time better?
    And I think you have answered this, but are you leveraging 
commercially available software?
    Mr. Warren. We are, sir.
    And we are glad to get back on the record the range of 
questions you had asked.
    Senator Portman. Thank you very much. I appreciate it.
    Mr. Miller, I have some questions for you, and my time is 
expiring here.
    But one of the issues I think we would like to get in front 
of is this interoperability between the VA and DOD. You talked 
about it today, and the need to modernize the electronic health 
records.
    I think there are, unfortunately, a lot of cases of service 
members falling between the cracks somehow when they leave your 
side of the house and go over to the VA, and that transition is 
often tough, and some of it is record management systems, as I 
understand it.
    I understand that service members can receive an electronic 
copy of their health records only if they request it, but many 
either do not know that or fail to request it until it is too 
late. Is that accurate?
    Mr. Miller. Sir, I will have to take it for the record to 
get the official policy, but as I mentioned earlier, one of the 
initiatives we have undertaken is to provide access through 
Blue Button so that our service members can get access to their 
record.
    But I will come back for the record and answer that, sir.
    Senator Portman. OK. I think that that would be interesting 
for the Committee to know.
    I do not know if you know this legislation called the 
Medical Evaluation Parity for Service Members Act (MEPS). And 
it says, ``let's get an evaluation when people go into the 
military and when they exit and have some sort of a benchmark 
to know,'' trying to avoid some of these tragic instances that 
we all know about--mental health concerns.
    That legislation would require DOD to report to Congress on 
its ability to provide service members an electronic copy of 
their health records upon separation from the military.
    If you would not mind looking at that legislation and 
giving us your opinion on it, that would be helpful.
    Mr. Miller. Yes, will do, sir.
    Senator Portman. Thank you.
    Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator Portman.
    I am going to go with you, Steph. I have a couple questions 
for the VA.
    It has been well documented that some of the employees--and 
Senator Portman talked about this--manipulated the computer 
scheduling system. Can they do that today, or have you been 
able to fix that with the current system?
    Mr. Warren. Sir, the challenge we have is the scheduling 
system----
    Senator Tester. Right.
    Mr. Warren [continuing]. Is something that allows 
individuals to make appointments.
    Senator Tester. OK.
    Mr. Warren. And so, when you make an appointment, there are 
opportunities for the appointments to change----
    Senator Tester. OK.
    Mr. Warren [continuing]. If the veteran would like to 
change.
    Senator Tester. I understand.
    Mr. Warren. And so it is, how do you understand whether it 
was a clinician needing to change or a veteran needing to 
change or somebody doing something wrong? That is what the 
audit or the IG is out looking at, to try and understand this.
    Senator Tester. I understand.
    And so when the new system gets in, is that going to be one 
of the components you guys are paying particular attention to--
how you can follow that audit trail, so to speak, to know who 
made the request?
    Mr. Warren. I think you can be assured, sir, that the audit 
and audit features in terms of how do you differentiate is one 
of the areas of concern for us.
    Senator Tester. OK. One of the things that I want to point 
out to you because we got a report yesterday on Montana's VA, 
it is a 48-day wait list for the folks that are new.
    And there are multiple reasons for that. It is not all IT. 
It is staffing. It is getting time appointments because it 
takes three times as long to see those folks once they get in 
the hospital.
    But I will say that the vets who are returning vets, their 
appointments were filled within 8 days. So I want to say that 
the VA, although it needs some upgrading, there are areas where 
they did perform to standard and, often times, above.
    I want to talk a little bit about the DOD/VA record-
sharing, too. Are we there yet?
    Mr. Miller. Sir, I do not think we are ever there.
    I would say a couple of highlights I would hit, sir.
    One is as of January all of our service treatment records 
now flow electronically into the VA system. So that is a 
positive thing. Now we do not have to worry about storing 
files. We do not have to worry about things getting lost. And 
so we have made that.
    Sir, I think we are always going to have work to improve 
the data-sharing because things are happening in the commercial 
world; things are happening in terms of our understanding. And 
so I think we are going to continually be looking at ways to 
improve the data-sharing between the two departments.
    Senator Tester. I have that.
    The reason I bring that up is because some of the backlog 
that the VA has is because--and you correct me if I am wrong 
because I could be--they cannot get the information on what 
happened to that soldier when they were in the field.
    Mr. Miller. So, sir, it is important to recognize that the 
backlog covers a wide breadth of time, right.
    Senator Tester. Oh, I know. Yes.
    Mr. Miller. So depending on when the service member left 
active duty, the problem can be different. Right, sir?
    Senator Tester. Right.
    Mr. Miller. And so we are doing everything possible to make 
sure that the information is flowing to the VA.
    Senator Tester. And we had this conversation. I am on the 
Veterans' Affairs Committee. So I have had the conversation 
with staff.
    As Chairman Mikulski brought together the appropriators we 
had the discussion with the DOD and the VA and everybody else.
    The point is this; you cannot do it for everybody because a 
lot of them retired during the Vietnam era, for example.
    But you have veterans coming back from Afghanistan right 
now, that the VA should have access to their information. Do 
they?
    Mr. Miller. Sir, that is where we are working closely with 
the VA to start doing things prior to the separation to help 
coordinator.
    And so those are those areas of improvement where the 
information is in our system electronically today, sir, and so 
that is where we are working in a partnership with the VA to 
start helping that transition----
    Senator Tester. I understand.
    Mr. Miller [continuing]. Because it is there, sir. It is a 
matter of the processes lining up.
    Senator Tester. I am not being critical. I know your hearts 
are in the right condition, or rather in the right place.
    But I would say that from a farmer's perspective, which is 
what I really am, it does not make any sense to me why you 
cannot make those things talk to one another to get that 
information.
    And, Steph, do you want to talk to that?
    You can speak to it, Christopher, and then I am going to 
have Steph do it.
    Mr. Miller. So, sir, they do talk, right. I think it is 
important that we recognize that there is a data-sharing in 
support of making clinical and medical decisions. That is what 
I referenced earlier, where we have over five million health 
records that are correlated on both sides.
    When we start talking claims disability evaluation, that is 
where there are more things that come into play, sir, and so 
that is where I think we can do a better job.
    Senator Tester. OK.
    Mr. Miller. We are going to continue to work together.
    Senator Tester. Good.
    Mr. Miller. But for medical decisions, when people move, 
that information is flowing, sir, but there are other things 
that come into play for a service treatment record that we have 
to bring in and have to be done and certified and support that.
    Senator Tester. We are on the same page. I understand where 
you are, and it can be done if there is a commitment to do it.
    And, Steph, would you want to respond to that?
    Mr. Warren. Sir--and I think to build on some of the points 
Chris Miller has made is you are talking about two different 
things.
    One deals with care. How do you make sure you have the 
information available to the clinician so they can make those 
care decisions?
    Chris talked about the Janus viewer, the thing we rolled 
out to the polytrauma units last year, and we are expanding up 
to over 2,500 clinicians this year.
    The other one deals with the decision in terms of a 
benefit, and so the Health Artifact and Image Management 
Solution (HAIMS) and those Service Treatment Records (STRs) 
coming in.
    Senator Tester. Yes.
    Mr. Warren. It deals with the duty-to-assist clock, and so 
now getting those records.
    Senator Tester. Yes.
    Mr. Warren. You are right; we still need to deal with the 
ones who separated before.
    Senator Tester. Yes.
    Mr. Warren. How do we get that in?
    And we have our commitment from our partners at DOD to deal 
with those.
    But I know this is the dangerous part in a hearing--there 
is actually a third part that we need to make sure we talk 
about--is when we take the care out into the private sector. 
Yes.
    Mr. Warren. We lose the goodness of the electronic 
systems----
    Senator Tester. I understand.
    Mr. Warren [continuing]. If that information does not come 
in a form that we can use to do that quality care, sir.
    Senator Tester. I understand. And you are right.
    The only thing that I would say is just that we live in a 
world that moves very fast, and I think we have been talking 
about this for at least 7\1/2\ years. I think since I got on 
the VA Committee, we have talked about those two systems being 
seamless and so that--well, you understand.
    I want to talk about something that is somewhat similar, 
and I will talk to you about it first, Luke. You are in 
Homeland Security. If CBP is looking for a major investment in 
IT that maybe the Air Force has done something similar, or DOD 
has done something similar to, No. 1, do you seek that 
information out, and No. 2, how do you seek that information 
out, and No. 3, how many times has that happened?
    Mr. McCormack. There is an entire process that we would go 
through to evaluate any type of capability, what is called a 
market research, and a market research would look into the 
private sector and see what is available through commercialized 
products.
    And we would also look internally to see if there is a 
capability across the Federal landscape and see if there is a 
fit there, see if we can reuse that capability and leverage it 
as sort of what is commonly called a GOTS-type configuration, 
where somebody has already built some type of environment, some 
type of capability that we could just adopt and incorporate 
into our environment.
    I would have to get back to you for the record on how often 
that has happened. I do not have a number off the top of my 
head.
    Senator Tester. Well, I just think--and we talked a little 
bit about this yesterday, Luke.
    I mean, I think the CIO Council is an opportunity, but the 
bottom line is there is no need to build the wheel if it has 
already been built. But you have to go look for that wheel.
    Mr. McCormack. Sure.
    Senator Tester. And, hopefully, that is happening.
    Steph, we are going to go back to VA telemed here for a 
little bit. Can you tell me what kind of telemedicine 
initiatives are out there and if you plan on expanding upon 
them?
    Mr. Warren. Multiple. The way we structured it so far is 
that we have made sure that every location can run two 
concurrent televideo conferences.
    Senator Tester. Now what are you talking about--every 
location? Are you talking about every CBOC, or are you talking 
about every hospital?
    Mr. Warren. All the hospitals are done, and now we are 
moving into the CBOC in terms of giving them the capability, 
starting with the largest one.
    Senator Tester. OK.
    Mr. Warren. We also have the home telehealth program, where 
we have devices in the home. So veterans are able to take 
advantage of that. In fact, in 2013, we had 600,000 had 1.7 
million telehealth base care health episodes.
    Senator Tester. OK.
    Mr. Warren. So that is a large number.
    And what we have seen is when you do that, that home 
telehealth, we reduce our bed days down by 59 percent.
    Senator Tester. So long-term, are you looking to have 
telemed in every CBOC?
    Mr. Warren. We are driving on that, and I will share with 
you I had the unique experience of sitting on a telemental 
interview.
    Senator Tester. Yes.
    Mr. Warren. And the feedback from the veteran of----
    Senator Tester. It was very positive.
    Mr. Warren [continuing]. When I have a bad day, I do not 
have to get in a car and fight my way there.
    Senator Tester. Right.
    Mr. Warren. And just the ability in the comfort of the home 
to have the engagement--just powerful in terms of being able to 
use that.
    And we see that as an opportunity in the rural areas of how 
we could expand that network.
    Senator Tester. It is huge. And most of the telemed you are 
doing is mental health-related?
    Mr. Warren. Mental health is a place we are driving on.
    But we actually met with the innovations center and they 
are looking at some of the devices in terms of how do you 
remotely do tuning of a hearing aid so the veteran does not 
have to actually come into a location to do that.
    Senator Tester. Cool.
    Mr. Warren. So, again, expanding the capabilities and using 
the technology, sir.
    Senator Tester. OK. What is the biggest obstacle for the 
delivery of telemed right now?
    Mr. Warren. I would share that the one place--and I think 
all of us, when we deal with work at home as well--is that last 
mile. We can drive it to. We can use the big providers. But 
once you get into the rural areas, how do you make the 
connection?
    Senator Tester. Yes.
    Mr. Warren. And we know there is a program, I think with 
the FCC, where dollars are collected as part of the fees.
    Senator Tester. Yes.
    Mr. Warren. How do we get them engaged with driving out 
into the communities and building the infrastructure that we 
can use, sir?
    Senator Tester. David Powner, in your testimony, you talked 
about we need better transparency in savings. How do we achieve 
it? How do we achieve better transparency?
    Mr. Powner. In terms of--the data center consolidation is 
one good example. I think there is data.gov. You can actually 
go into data.gov and look at closures to date, but you cannot 
see the savings to date. So I can tell you what centers have 
been closed at what agency.
    And there is a lot of success stories. DOD has a bunch of 
them.
    But all that savings is kind of behind the scenes, and we 
think there should be more because the key going forward--there 
is about $3 billion that the agencies are telling us, we can 
save in fiscal years 2014 and 2015 alone on data centers 
consolidation going forward.
    And having that transparency on that actually helps in 
terms of execution.
    Senator Tester. OK. You also talked about the CIOs' need to 
be empowered by agency leadership. The spending authority? What 
kind of empowerment are you talking about?
    Mr. Powner. Spending authority is one way to go, but if you 
look historically at the CIO position and whether CIOs are 
consistently supported by dep secretaries and the like, I think 
the short answer to that is they are not. And I think there are 
examples across the Federal Government where that has happened, 
and that is why we have this authority issue.
    Do CIOs have the authority to go in, whether they have 
budget authority or not, to stop a project that is not 
performing well?
    Senator Tester. Right.
    Mr. Powner. And the answer to that is not consistently 
across the Federal Government.
    Senator Tester. So let me ask the other folks.
    In your position, do you have the ability to single-
handedly stop a project, Luke?
    Mr. McCormack. It is never a single-handed decision, but I 
would certainly say that through our governance process, by all 
means, we have the means to stop a project, and we have.
    Senator Tester. But you are the leader of the pack, right?
    I mean, you are the leader of the information?
    Mr. McCormack. Sure.
    Senator Tester. And so if you have something that is going 
upside-down----
    Mr. McCormack. Right, I have the authority to throw a 
technical flag down on any given IT project and say that we 
need to pause and reassess what we are doing.
    Senator Tester. Steph.
    Mr. Warren. I do as a consolidated organization, but I 
always make sure my business customer is aware and they 
understand why.
    Senator Tester. Then it is much bigger than just walking in 
and saying, yes. Donna.
    Ms. Seymour. I would agree with my colleagues. It is a 
partnership with the business.
    Senator Tester. OK.
    Ms. Seymour. And I think that given the director's 
authority over operating the entire agency, it is something 
that takes some engagement across leadership in a governance 
model.
    Senator Tester. Christopher.
    Mr. Miller. Sir, I am not a CIO.
    I am an acquisition professional, and so I would say that 
from--that within the Department of Defense, for major efforts 
like this, where the Department is going to acquire something, 
it is a partnership. So I regularly brief our CIO as my boss, 
Mr. Kendall.
    Senator Tester. All right.
    Mr. Miller. And I would offer that either one of them can 
have the ability to stop the program if they are not 
comfortable where it is going.
    Senator Tester. OK.
    Spending authority. I think you said it in your testimony, 
that you have it, right, Steph?
    Mr. Warren. Yes, I do, sir. I am responsible for the 
budget. I make sure that the prioritization is done----
    Senator Tester. Right.
    Mr. Warren [continuing]. With the under secretaries. They 
own that.
    Senator Tester. OK Luke.
    Mr. McCormack. I have the oversight for all the spend 
across the Department. We do that in sort of a federated mode, 
but I certainly have the oversight capability on all spend.
    As I said in my opening testimony, we are checking down to 
the spends that are $2.5 million or less. We check--or, $2.5 
million or more. I review every one of those.
    Senator Tester. David, of the agencies that are out there, 
how many CIOs have spending authority? Not just the ones here 
but you know.
    Mr. Powner. Not very many.
    Senator Tester. Very few.
    Senator Tester. In terms of spending authority, not very 
many. Very few.
    I think you are right.
    Mr. Powner. If you look at PortfolioStat, PortfolioStat was 
not focused on mission-critical acquisitions. It was focused on 
commodity, or business, and administrative systems.
    And I think we had seven or eight agency CIOs tell us that 
they did not have authority over the business and 
administrative systems. That is not a very good situation.
    Senator Tester. I agree.
    So what is your biggest challenge right now, Luke?
    Mr. McCormack. I would say it is the same challenge that I 
had at ICE. It is the same challenge I had at DOJ. It is the 
demand always outstrips the capacity.
    Senator Tester. And is that because of money, or is that 
because of manpower?
    Mr. McCormack. I think it is probably a little bit of all 
that, right?
    There is always a balance on resources, and it is just the 
capacity of the ecosystem. Whether it is the acquisition 
community, the PM, the project management community, the user 
community who has to partner with us on these various programs, 
I think that the demand always outstrips the capacity.
    Senator Tester. Steph, if you were to take the VA situation 
right now and set it aside if you can, what is your biggest 
challenge besides that?
    Mr. Warren. I would say, as a leader who has many years in 
the Federal sector, it is the sense of helplessness at times. I 
come across folks in the organization, the middle management--
the 14s, the 15s, the 13s--in terms of them understanding they 
have responsibility and have obligations and, yes, they need to 
drive on it.
    Sometimes it is easy to focus on a process, and a lot of 
our work has been about individual responsibility for the 
outcome because that is what we are there for. We are not to 
write reports. We are there to deliver services and benefits to 
those who provide to our veterans, and so we drive on that.
    But it is a challenge because many folks come from outside 
and they have not had that discipline; they have not had that 
drive.
    We have been very successful. I have a high-driving team. 
But we also have areas we still need to work on, sir.
    Senator Tester. David, one question for you, has the OMB 
and the CIO Council been effective in holding agencies 
accountable for CIO performance?
    Mr. Powner. At times, and I will give you a good example.
    Right after the dashboard was rolled out, there were these 
TechStat sessions, executive review sessions at OMB. There were 
about 58 projects and about 70 meetings held. So some of them 
were held multiple times.
    During that period of time, there were projects terminated 
and rescoped. OMB claims $3 billion in savings over about a 
year period. That is where they got really active in reviewing 
projects.
    And I will give you one example--the ECSS project that 
failed with the Air Force, that we spent a billion dollars with 
nothing to show for it.
    Senator Tester. Yes.
    Mr. Powner. That was the only project TechStatted three 
times.
    So that is very effective.
    So I think between what the agency CIO executive team does 
with their governance activities that were discussed here.
    But I also think there is another level, that when you look 
at OMB, I think they can do a more effective job. They are not 
doing a lot of those TechStat sessions now, and we have 
documented and testified to that point, but that has been very 
effective.
    So one key question would be--and we have raised this--from 
a Federal CIO perspective or the CIO Council, what are the top 
15 or 20 projects for the Nation?
    We have 750 major projects on the dashboard. Only 275 of 
those are new acquisitions. It is really not that many when you 
look governmentwide.
    Senator Tester. Yes.
    Mr. Powner. What are the top 15 or 20?
    I guarantee that electronic health records would make the 
cut. It would definitely make the cut.
    Senator Tester. Yes.
    Mr. Powner. And having some visibility there, with 
additional Congressional oversight.
    Senator Tester. Yes.
    Mr. Powner. Very helpful.
    Senator Tester. This is for everybody but you, Mr. Powner.
    How often are your agencies using PortfolioStats or 
TechStats, and do you believe they are effective tools?
    Start with you, Luke.
    Mr. McCormack. We have used the TechStats very often. We 
have done over 14 of those. I think they have been very 
effective, whether it is re-baselining the schedule, giving the 
program the type of help it needs to get it back on track. So 
that has been very effective over the course of the last couple 
years.
    I think the PortfolioStat is very powerful, and I think 
that is another way, by the way, that the council sort of holds 
the CIO accountable because you are in there evaluating your 
entire spend profile.
    And, while a lot of it is focused on commodity, a lot of 
money is spent on commodity. In an agency, typically, half the 
IT spend is commodity-based.
    And you are in there with your entire leadership team, 
explaining why you are spending the money you are and also 
comparing you, which I think is one of the most powerful parts 
of PortfolioStat, to quintiles in your area.
    So you can see how much it is costing you to deliver a 
desktop per user and compare that to how much the State 
Department delivers a desktop or how much VA delivers a 
desktop. And you are being accountable to explain why you are 
in the upper part of that quintile as opposed to delivering 
that capability for much less.
    So I think that is a powerful tool, and I think it is--as 
GAO has testified here, has saved upwards up to $1.9 billion, 
and I think there is a whole lot more opportunity out there.
    Senator Tester. Steph.
    Mr. Warren. So I may get stoned by saying this, but the 
TechStats were actually taken from a program that the VA 
established in 2010.
    So I can tell you this year we have done 20 so far; last 
year, 37; the prior year, 68.
    Anytime a project does not appear to be making its date, we 
have a TechStat. Why are we going to miss the date? What do you 
need?
    One of the things that we have driven into the organization 
is not just the TechStat, which is if you are going to miss, 
once a week we have a red flag meeting because we look at 
projects as a contract. And any project leader, any person on a 
project--a contractor, a member of the team, a customer--if you 
believe your project is not going to deliver, you throw the 
flag. I have every one of my leaders on that call to solve the 
problems and get the solutions delivered.
    So we find them very useful, and we find them as a lessons 
learned. How do we learn from the things that got in the way 
that would preclude the delivery?
    Senator Tester. Donna.
    Ms. Seymour. Being new in OPM, I used TechStat and 
PortfolioStat to kind of get a handle on their programs as I 
came in because the prior CIO had already departed, and so I 
found both of those tools to be very valuable just to gain a 
sense of our major investments but also some of our less-than-
major investments.
    And the TechStat has really given me the ability to deep-
dive into a couple of areas.
    And then, of course, the Portfolio Stat, reviewing the 2013 
and getting ready for 2014, I think, has really put me in a 
better place to be able to plan ahead.
    Senator Tester. OK. Christopher.
    Mr. Miller. So, sir, I am probably a little unique here. I 
do not think there is any other program like what I am running 
right now at the Department of Defense. The amount of 
engagement and oversight that I have right now, sir, is 
probably mind-boggling to some people.
    I would tell you, sir, that the Secretary gets briefed 
about once a week, and I brief OSD senior leadership at least 
once a month. And I will tell you we have done more things to 
analyze the investment, to analyze the schedule of performance.
    And so I would say we are doing some things right now that 
are innovative and different, and I think we are trying to 
learn some things here.
    One of the things I would highlight is we have very much 
tried to learn from the commercial industry in terms of what 
the statistics and comparable points are in terms of how we 
think about both schedule as well as the investment for our 
program, to make sure we are really judging ourselves in the 
right way, sir.
    Senator Tester. OK. Well, I will just tell you I appreciate 
all of you guys showing up today. I appreciate your testimony. 
I appreciate your straightforward answers to questions.
    There are a couple of things that I would say.
    If we are going to be effective and efficient in this area, 
we need the best possible people to be filling the positions, 
whether it is your position or the positions that you oversee. 
And I think that you have a commitment to do that, and I 
appreciate that.
    And we will work with you, all of you, to make sure that we 
have the best people to do it and empower you to be able to 
make those decisions.
    I will tell you that there is a lot of work that can be 
done here to save a lot of money and be more effective.
    I am the last person in the world that should be talking 
about technology, but the truth is that when I was in the State 
government we had fiascos with technology in Montana, where a 
lot of money was spent and we did not get one thing out of it. 
And that is not what we want to have here at the Federal level, 
and I know that you folks do not want that either because it 
makes your job much more difficult.
    So I look forward to working with you and colleagues on 
this Committee and in the Senate to find solutions and give you 
the power you need to be able to do your job in a way that 
meets the needs of the agencies.
    So, with that, the hearing record will be open until June 
25 for any additional comments and questions that might be 
submitted for the record.
    Once again, I thank the panelists for being here today, and 
this hearing is adjourned.
    [Whereupon, at 5:04 p.m., the Subcommittee was adjourned.]
    
    
    
    
    
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
